Case: 19-2183

Document: 24-2

Filed: 01/08/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 19-2183
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

DENNIS AKAAZUA,
Plaintiff-Appellant,
v.

WALKER NOVACK LEGAL GROUP, LLC;
IMPERIAL VALLEY PROPERTIES, LLC;
BUCHER & CAMERON, LLP; MORTGAGE
ELECTRONIC REGISTRATION SYSTEMS,
INC.,
Defendants-Appellees,
and
HOME LOAN CORPORATION; ALL STATE
MORTGAGE; TM PROPERTY SOLUTIONS,
LLC,
Defendants.

FILED

Jan 08, 2021
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
. )

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
MICHIGAN

)
)
)
)
)
)
)
)
)

{

ORDER

Before: BOGGS, STRANCH, and BUSH, Circuit Judges.

Denis Akaazua, a Michigan resident proceeding pro se, appeals a district-court judgment
dismissing his complaint against Walker Novak Legal Group, LLC; Home Loan Corporation;
Imperial Valley Properties, LLC; Bucher & Cameron, LLP; Mortgage Electronic Registration
Systems, Inc. (“MERS”); All State Mortgage; and TM Property Solutions, LLC. This case has
been referred to a panel of the court that, upon examination, unanimously agrees that oral
argument is not needed. See Fed. R. App. P. 34(a).

Case: 19-2183

Document: 24-2

Filed: 01/08/2021

Page: 2

No. 19-2183
-2Akaazua filed a complaint against the defendants in the Circuit Court of Kent County,
Michigan, seeking a temporary restraining order and alleging violations of the Truth in Lending
Act, 15 U.S.C. §§ I601-1667f, conversion, fraud and conspiracy to commit fraud, slander of
title, breach of contract, and intentional infliction of emotional distress. After the defendants
removed the action to the United States District Court for the Western District of Michigan, the
court denied Akaazua’s motion for a restraining order and his motion to remand. The district
court then granted the motions to dismiss filed by Imperial Valley Properties and MERS because
Akaazua’s failure to respond constituted a waiver of any argument that dismissal was improper,
granted the motion to dismiss filed by Walker Novak and Bucher & Cameron because Akaazua
failed to state a claim upon which relief could be granted, and dismissed the remaining
defendants for failure to effectuate service. Akaazua v. Walker Novak Legal Grp., LLC, No.
1:19-cv-31, 2019 WL 4316130 (W.D. Mich. Sept 32, 2019).
On appeal, Akaazua argues that the district court erred in denying his motion to remand
and erred in granting the motions to dismiss filed by Imperial Valley Properties, Walker Novak,
Bucher & Cameron, and MERS. Akaazua has forfeited review of any claims that he raised in the
district court but did not raise in his appellate brief. See Agema v. City ofAllegan, 826 F.3d 326,
331 (6th Cir. 2016).
We review de novo a district court’s denial of a motion to remand. Music v. Arrowood
Indent. Co., 632 F.3d 284, 286 (6th Cir. 2011). A civil case brought in state court may be
removed to federal court if the action originally could have been brought in federal court.
28 U.S.C. § 1441(a). Because Akaazua’s complaint alleged violations of the Truth in Lending
Act, his complaint was properly removed to the district court. Moreover, despite Akaazua’s
assertions to the contrary, foreclosure actions are not admiralty claims, and the United States
District Court for the Western District of Michigan is a federal district court. Accordingly, the
district court did not err in denying the motion to remand.
We review de novo a district court’s dismissal of a complaint under Federal Rule of Civil
Procedure 12(b)(6). Winget v. JP Morgan Chase Bank, N.A., 537 F.3d 565, 572 (6th Cir. 2008).

Case: 19-2183

Document: 24-2

Filed: 01/08/2021

Page: 3

No. 19-2183
-3-

The district court did not err in granting the motions to dismiss filed by Imperial Valley
Properties and MERS because Akaazua’s failure to respond constituted a waiver of any
argument that the dismissal was improper. See Allstate Ins. Co. v. Glob. Med. Billing, Inc., 520
F. App’x 409, 412 (6th Cir. 2013). Moreover, although Akaazua asserts that inclement weather
prevented him from timely responding to the dismissal motions, there is no basis for treating a
pro se litigant more generously than a represented litigant when a pro se litigant fails to comply
with an easily understood deadline. See In re Edwards, 748 F. App’x 695, 700 (6th Cir. 2019).
Finally, the district court did not err in dismissing the complaint as to Walker Novak and Bucher
& Cameron because Michigan law provides that an attorney does not owe a legal duty to an
adverse party, and Akaazua failed to allege that these defendants did anything other than
represent Imperial Valley Properties in foreclosure proceedings. See Tocco v. Rickman Greer
ProflAss’n,, 553 F. App’x 473, 475 (6th Cir. 2013).
Accordingly, we AFFIRM the judgment of the district court.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case l:19-cv-00031-JTN-ESC ECF No. 41, PagelD.530 Filed 09/12/19 Page 1 of 1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
DENNIS AKAAZUA,
Plaintiff,
Case No. l:19-cv-3I
v.
HON. JANET T. NEFF
WALKER NOVAK LEGAL GROUP, LLC, et
al.,
Defendants.

JUDGMENT
In accordance with the Opinion and Order entered this date:
IT IS HEREBY ORDERED that Plaintiffs claims against Defendants Walker Novak
Legal Group, LLC; Imperial Valley Properties LLC; Bucher & Cameron, LLP; Mortgage
Electronic Registration Systems, Inc are DISMISSED WITH PREJUDICE and Plaintiffs claims
against Defendants Home Loan Corporation, All State Mortgage, and TM Property Solutions, LLC
are DISMISSED WITHOUT PREJUDICE for failure to timely effect service.

Dated: September 12, 2019

/s/Janet T. Neff
JANET T. NEFF
United States District Judge

Case l:19-cv-00031-JTN-ESC ECF No. 40, PagelD.525 Filed 09/12/19 Page lot5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
DENNIS AKAAZUA,
Plaintiff,
Case No. l:19-cv-31
v.
HON. JANET T. NEFF
WALKER NOVAK LEGAL GROUP, LLC, et
al.,
Defendants.

OPINION AND ORDER
This matter is before the Court on Plaintiffs objections to three Reports and
Recommendations of the Magistrate Judge. In accordance with 28 U.S.C. § 636(b)(1) and FED.
R. Civ. P. 72(b)(3), the Court has performed de novo consideration of those portions of the Reports
and Recommendations to which objections have been made. The Court denies the objections and
issues this Opinion and Order.
Plaintiff, proceeding pro se, initiated this case in state court in December 2018, alleging
violations of the federal Truth in Lending Act, as well as various state law provisions, arising from
the foreclosure and pending sale of certain real property. Plaintiff named the following seven
defendants: Walker Novak Legal Group, LLC (Walker); Home Loan Corporation; Imperial Valley
Properties LLC (Imperial); Bucher & Cameron, LLP (Bucher & Cameron); Mortgage Electronic
Registration Systems, Inc. (MERS); All State Mortgage; and TM Property Solutions, LLC. On
January 14, 2019, Defendant MERS removed the action to this Court (ECF No. 1), indicating it
had obtained consent to removal by Walker, Imperial, and Bucher & Cameron, the only co-

Case l:19-cv-00031-JTN-ESC ECF No. 40, PagelD.526 Filed 09/12/19 Page 2 of 5

Defendants whom Plaintiff had served to date {id. at PageID.2). On January 22, 2019, Defendant
Imperial filed a motion to dismiss (ECF No. 9), Defendants Bucher & Cameron and Walker jointly
filed a motion to dismiss (ECF No. 10), and Defendant MERS filed a motion to dismiss (ECF No.
11). The matter was referred to the Magistrate Judge.
On March 6, 2019, the Magistrate Judge issued a Report and Recommendation (R&R)
(ECF No. 21), recommending that the motions to dismiss filed by Defendants Imperial and MERS
be granted. The Magistrate Judge reasoned that dismissal was appropriate because Plaintiff failed
to respond to either motion {id. at PageID.426). Plaintiff filed an objection to the Report and
Recommendation (ECF No. 23), representing that the weather prevented him from filing timely
responses to Defendants’ motions to dismiss {id. at PageID.436-437). The Court finds Plaintiffs
objection unavailing and will approve and adopt the Magistrate Judge’s Report and
Recommendation (ECF No. 21) as the Opinion of the Court.
On June 21,2019, the Magistrate Judge issued a second Report and Recommendation (ECF
No. 35). The Magistrate Judge recommended that Plaintiffs Motion to Remand (ECF No. 18) be
denied as his jurisdictional argument was “frivolous” {id. at PageID.508). The Magistrate Judge
recommended that Plaintiffs motions to strike Defendants Bucher & Cameron and Walker’s
motion to dismiss (ECF Nos. 14 & 16) also be denied as “frivolous,” although the Magistrate Judge
considered the motions to strike as “responses” to Defendants Bucher & Cameron and Walker’s
motion to dismiss (R&R, ECF No. 35 at PageID.508). The Magistrate Judge recommended that
Defendants Bucher & Cameron and Walker’s motion to dismiss be granted, concluding that
Plaintiff failed to state a plausible claim for relief against either Defendant {id. at PageID.508509).

2

Case l:19-cv-00031-JTN-ESC ECF No. 40, PagelD.527 Filed 09/12/19 Page 3 of 5

In his July 3, 2019 objections (ECF No. 36), Plaintiff did not object to the Magistrate
Judge’s resolution of his Motions to Strike or the Magistrate Judge’s analysis of his claims against
Defendants Bucher & Cameron and Walker. Plaintiff merely reiterates the jurisdictional argument
he made in his motion to remand, without demonstrating any factual or legal error in the Magistrate
Judge’s analysis or conclusion. Accordingly, this Court will also approve and adopt the Magistrate
Judge’s Report and Recommendation (ECF No. 35) as the Opinion of the Court.
Last, on August 26, 2019, Plaintiff filed objections to the Magistrate Judge’s third Report
and Recommendation (ECF No. 37), which recommends dismissal of the three unserved entities:
Home Loan Corporation, All State Mortgage and TM Property Solutions, LLC. Plaintiff asserts
that he served all three entities on February 3,2019 and that his proof of service is “missing on the
Docket entries” (ECF No. 38 at PageID.519).
negligence” (id).

Plaintiff “requests an explanation on such

Plaintiff amended his objection on August 27, 2019 to clarify that the

“negligence [was] allegedly inflicted by the recording State clerk(s)” (ECF No. 39 at PageID.523).
Plaintiff does not attach to his objection or his amended objection any copies of documents
demonstrating service before removal of this case on January 14, 2019; on February 3, 2019; or
any date. Further, as noted by the Magistrate Judge (R&R, ECF No. 37 at PageID.516), Plaintiff
did not request an extension of time to effect service on these entities, nor does the Court discern
good cause to grant any such extension. Plaintiffs objection is unavailing, and the Court will
therefore approve and adopt the Magistrate Judge’s Report and Recommendation (ECF No. 37) as
the Opinion of the Court.
Because this Opinion and Order resolves all pending claims, Plaintiffs objections to
various discovery matters (ECF Nos. 22, 33 & 34) will be denied as moot and a Judgment will
enter. See Fed. R. Civ. P. 58.

3

Case l:19-cv-00031-JTN-ESC ECF No. 40, PagelD.528 Filed 09/12/19 Page 4 of 5

Therefore:
IT IS HEREBY ORDERED that the Objections (ECF No. 23) are DENIED and the
Report and Recommendation of the Magistrate Judge (ECF No. 21) is APPROVED and
ADOPTED as the Opinion of the Court.
IT IS FURTHER ORDERED that Defendant Imperial Valley Properties LLC’s Motion
to Dismiss (ECF No. 9) is GRANTED for the reasons stated in the Report and Recommendation
(ECF No. 21).
IT IS FURTHER ORDERED that Defendant Mortgage Electronic Registration Systems,
Inc.’s Motion to Dismiss (ECF No. 11) is GRANTED for the reasons stated in the Report and
Recommendation (ECF No. 21).
IT IS FURTHER ORDERED that the Objections (ECF No. 36) are DENIED and the
Report and Recommendation of the Magistrate Judge (ECF No. 35) is APPROVED and
ADOPTED as the Opinion of the Court.
IT IS FURTHER ORDERED that Plaintiffs motions to strike (ECF Nos. 14 & 16) are
DENIED for the reasons stated in the Report and Recommendation (ECF No. 35).
IT IS FURTHER ORDERED that Plaintiffs Motion to Remand (ECF No. 18) is
DENIED for the reasons stated in the Report and Recommendation (ECF No. 35).
IT IS FURTHER ORDERED that Defendants Bucher & Cameron, LLP and Walker
Novak Legal Group, LLC’s motion to dismiss (ECF No. 10) is GRANTED for the reasons stated
in the Report and Recommendation (ECF No. 35).
IT IS FURTHER ORDERED that the Objections (ECF Nos. 38 & 39) are DENIED and
the Report and Recommendation of the Magistrate Judge (ECF No. 37) is APPROVED and
ADOPTED as the Opinion of the Court.

4

1

Case l:19-cv-00031-JTN-ESC ECF No. 40, PagelD.529 Filed 09/12/19 Page 5 of 5

IT IS FURTHER ORDERED that Plaintiffs Objections (ECF Nos. 22, 33 & 34) are
DENIED AS MOOT.

/s/ Janet T. Neff
JANET T. NEFF
United States District Judge

Dated: September 12, 2019

5

i

Case l:19-cv-00031-JTN-ESC ECF No. 37, PagelD.515 Filed 08/14/19 Page 1 of 2

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

DENNIS AKAAZUA,
Plaintiff,

Hon. Janet T. Neff
Case No. l:19-cv-31

v.
WALKER NOVAK
LEGAL GROUP, et al.
Defendants.

REPORT AND RECOMMENDATION
This action arises out of the foreclosure and sale of certain real property. On or about
December 11, 2018, Plaintiff initiated an action in state court against seven entities. On January 14,
2019, the matter was removed to this Court. Plaintiff has failed, however, to effect service on the
following Defendants: (1) Home Loan Corporation; (2) All State Mortgage; and (3) TM Property
Solutions LLC. Pursuant to 28 U.S.C. § 636(b)(1)(B), the undersigned recommends that Plaintiffs
claims against these Defendants be dismissed for failure to timely effect service.
While Plaintiff initiated this action in state court, upon removal to this Court the Federal
Rules of Civil Procedure must apply. See Fed. R. Civ. P. 81(c)(1). Federal Rule of Civil Procedure
4(c) indicates that “[a] summons must be served with a copy of the complaint.” The time frame
within which service must be effected is articulated in Rule 4(m), which provides that if service of the
summons and complaint is not made upon a defendant within 90 days after the filing of the complaint,
“the court - on motion or on its own initiative after notice to the plaintiff - must dismiss the action
without prejudice against that defendant or order that service be made within a specified time.” See

Case l:19-cv-00031-JTN-ESC ECF No. 37, PagelD.516 Filed 08/14/19 Page 2 of 2

also, Abel v. Harp, 122 Fed. Appx. 248, 250 (6th Cir., Feb. 16, 2005) (“[a]bsent a showing of good
cause to justify a failure to effect timely service, the Federal Rules of Civil Procedure compel
dismissal”) (emphasis added).
CONCLUSION
This matter was removed to this Court on January 14, 2019. More than six months
have passed and Plaintiff has still failed to effect service on the three entities identified above.
Plaintiff has not requested an extension of time to effect service on these Defendants nor does the
Court discern good cause to grant any such extension. Considering Plaintiffs lack of diligence, the
undersigned recommends that Plaintiffs claims against Defendants (1) Home Loan Corporation; (2)
All State Mortgage; and (3) TM Property Solutions LLC be dismissed without prejudice for failure
to timely effect service.
OBJECTIONS to this Report and Recommendation must be filed with the Clerk of
Court within fourteen (14) days of the date of service of this notice. 28 U.S.C. § 636(b)(1)(C).
Failure to file objections within the specified time waives the right to appeal the District Court’s order.
See Thomas v. Arn, 474 U.S. 140 (1985); United States v. Walters, 638 F.2d 947 (6th Cir.1981).
Respectfully submitted,

Dated: August 14, 2019

/s/ Ellen S. Carmodv
ELLEN S. CARMODY
U.S. Magistrate Judge

2

i

Case l:19-cv-00031-JTN-ESC ECF No. 35, PagelD.507 Filed 06/21/19 Page lot 3

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

DENNIS AKAAZUA,
Hon. Janet T. Neff

Plaintiff,

Case No. 1:19-CV-31

v.
WALKER NOVAK
LEGAL GROUP, et al.,
Defendants.

REPORT AND RECOMMENDATION
This matter is before the Court on Defendants’ Corrected Motion to Dismiss. (ECF No.
101. Plaintiffs Motions to Strike. (ECF No. 14, 16), and Plaintiffs Motion to Remand. (ECF No. 18).
Pursuant to 28 U.S.C. § 636(b)(1)(B), the undersigned recommends that Defendants’ Motion to
Dismiss be granted, Plaintiffs Motions to Strike be granted in part and denied in part, and
Plaintiffs Motion to Remand be denied.

BACKGROUND
This action arises out of the foreclosure and sale of real property located at 931-933
Alexander Street, SE, Grand Rapids, Michigan. On or about December 11 2018, Plaintiff initiated
an action in state court against the following entities: (1) Walker Novak Legal Group, LLC; (2) Home
Loan Corporation; (3) Imperial Valley Properties LLC; (4) Bucher & Cameron, LLP; (5) Mortgage
Electronic Registration Systems, Inc. (MERS); (6) All State Mortgage; and (7) TM Property Solutions
LLC. (ECF No. 1-1 at PagelD.23-43). Plaintiff alleges violations of the federal Truth in Lending
Act, as well as various state law provisions. On January 14, 2019, the matter was removed to this
Court. Defendants Walker Novak and Bucher & Cameron now move to dismiss Plaintiffs claims.

Case l:19-cv-00031-JTN-ESC ECF No. 35, PagelD.508 Filed 06/21/19 Page 2 of 3

Plaintiff moves the Court to remand this matter to state court.
ANALYSIS
I.

Motion to Remand (ECF No. 18)
In their Notice of Removal, Defendants indicated that they were removing this matter

to “the United States District Court for the Western District of Michigan, Southern Division.” (ECF
No. 1 at PageID.2). Plaintiff argues that this matter must be remanded to state court because the
venue identified by Defendants “is the incorrect federal court.” Plaintiff argues that there exists a
distinction between a “United States District Court” and a “district court of the united states.”
According to Plaintiff, the present case is properly removable only to a “district court of the united
states,” but not to a “United States District Court.”

Plaintiff concludes, therefore, that because

Defendants removed this matter to a “United States District Court,” remand is required. Plaintiffs
argument is frivolous and is not supported by any authority cited by Plaintiff or known to this Court.
Accordingly, the undersigned recommends that Plaintiffs motion to remand be denied.
II.

Motions to Strike (ECF No. 14 and 16)
Plaintiff responded to the present motion to dismiss filed by Defendants Walker Novak

or Bucher & Cameron by filing two separate motions to strike. To the extent Plaintiff seeks to strike
Defendants’ motion to strike, the undersigned recommends that such be denied as frivolous. The
Court will, however, consider Plaintiffs motions as responses to Defendants’ motion to dismiss.
III.

Motion to Dismiss
In his complaint, Plaintiff makes no factual allegations against Defendants Walker

Novak or Bucher & Cameron which, if proven, state a claim for relief. Plaintiff merely alleges that
Defendants represented an entity, Imperial Valleys Properties, LLC, to which Plaintiffs mortgage was

-2-

Case l:19-cv-00031-JTN-ESC ECF No. 35, PagelD.509 Filed 06/21/19 Page 3 of 3

allegedly assigned and which ultimately foreclosed on the property in question. Such simply fails to
state a claim. See Fed. R. Civ. P. 12(b)(6); Ashcroft v. Iqbal, 556 U.S. 662, 677-79 (2009); Frazier
v. Michigan, 41 Fed. Appx. 762, 764 (6th Cir., July 22, 2002) (“a complaint must allege that the
defendants were personally involved in the alleged deprivation of federal rights”); Conlin v. Mortgage
Electronic Registration Systems, Inc., 2011 WL 6440705 at *1 (E.D. Mich., Dec. 16, 2011) (“a
plaintiff does not have a cause of action against foreclosure counsel”, but must instead seek relief from
the individual or entity whom counsel represents). Accordingly, the undersigned recommends that
Defendants’ motion to dismiss be granted.
CONCLUSION
For the reasons articulated herein, the undersigned recommends that Plaintiffs Motion
to Remand. (ECF No. 18), be denied; Plaintiffs Motions to Strike, (ECF No. 14, 16), be granted in
part and denied in part, and Defendants’ Corrected Motion to Dismiss. (ECF No. 10), be granted.
OBJECTIONS to this Report and Recommendation must be filed with the Clerk of
Court within fourteen (14) days of the date of service of this notice. 28 U.S.C. § 636(b)(1)(C).
Failure to file objections within the specified time waives the right to appeal the District Court’s order.
See Thomas v. Am, 474 U.S. 140 (1985); United States v. Walters, 638 F.2d 947 (6th Cir. 1981).
Respectfully submitted,

Dated: June 21, 2019

/s/ Ellen S. Carmodv
ELLEN S. CARMODY
U.S. Magistrate Judge

-3-

